Le
|

@OCKLE

L al Brief E-Mail Address:
€ 8 ets contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-547
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
Petitioners,
Vv.
SIERRA CLUB, INC.,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICI CURIAE OF THE REPORTERS COMMITTEE
FOR FREEDOM OF THE PRESS AND 28 MEDIA ORGANIZATIONS IN SUPPORT OF RESPONDENT in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Bruce D. Brown
Counsel of Record
Katie Townsend
Caitlin Vogus
Adam A. Marshall
Gunita Singh
THE REPORTERS COMMITTEE FOR
FREEDOM OF THE PRESS
1156 15th St. NW, Suite 1020
Washington, D.C. 20005
bbrown@rcfp.org
(202) 795-9300
Counsel for Amici Curiae

Subscribed and sworn to before me this 3rd day of August, 2020.
am duly authorized under the laws of the State of Nebraska to administer oaths.

orem] Kevse. 0. Lona Ondine bh. Ohl

Notary Public Affiant 39891

 

 

My Comm. Exp. September 5, 2023
Jeffrey B. Wall

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217

Counsel for Petitioners

Sanjay Narayan

Sierra Club Environmental Law Program
2101 Webster Street

Suite 1300

Oakland, CA 94612
sanjay.narayan@sierraclub.org
415-977-5769

Counsel for Respondent
